June 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, DC 20543
Re:

Dignity Health D/B/A Mercy San Juan Medical Center v. Evan Minton, No.
19-1135 – Letter Brief of Respondent Evan Minton in Response to
Supplemental Brief of Petitioner

Dear Mr. Harris:
Respondent Evan Minton respectfully submits this letter to the Court in
response to the Supplemental Brief of Petitioner filed June 21, 2021.
Petitioner filed its supplemental brief ostensibly to address the effect of this
Court’s decision in Fulton v. City of Philadelphia¸ No. 19-123 (U.S. June 17, 2021),
on the petition. Yet Petitioner candidly admits that “Fulton does not directly
address the issues raised in this case.” Suppl. Br. at 1. Instead of making any
argument that Fulton affects the outcome of the petition, Petitioner simply repeats
some of the non-Fulton-related arguments from its petition, without citing any new
cases or other authority. That is not a proper basis for a supplemental brief under
Rule 15.8. Sup. Ct. R. 15.8 (providing that any party may file a supplemental brief
while a petition for a writ of certiorari is pending “calling attention to new cases,

EXECUTIVE DIRECTOR Hector O. Villagra
CHAIR Marla Stone VICE CHAIRS Sherry Frumkin and Frank Broccolo
CHAIRS EMERITI Shari Leinwand Stephen Rohde Danny Goldberg Allan K. Jonas* Burt Lancaster* Irving Lichtenstein, MD* Jarl Mohn
Laurie Ostrow* Stanley K. Sheinbaum*
*deceased

1313 WEST EIGHTH STREET • SUITE 200 • LOS ANGELES, CA 90017 • T 213.977.9500 • F 213.915.0220 • ACLUSOCAL.ORG

Page 2
new legislation, or other intervening matter not available at the time of the party’s
last filing”).
Notably, Petitioner’s supplemental brief does not address any of the
significant jurisdictional or vehicle issues that Respondent raised in his brief in
opposition. Opp. 10-23. Petitioner seeks review of a demurrer, which is not a final
order and is therefore not reviewable now. Opp. 10-18. Further, even if this Court
had jurisdiction at this preliminary stage of a state proceeding, the petition rests on
factual assertions that are not yet part of the record, making this case an
inappropriate vehicle to resolve the questions it presents. Opp. 18–23. Indeed, given
the procedural posture and unresolved factual issues, it is not clear whether the
federal questions Petitioner raises will ever need to be decided in this case. Opp.
21–23.
Petitioner has made no argument that would support an order granting,
vacating, and remanding the petition for further consideration by the lower courts
in light of Fulton, as not even Petitioner contends that the California law at issue
contains any mechanism for individualized exemptions. Respondent respectfully
requests that the Court deny certiorari for the reasons outlined in his brief in
opposition.
Respectfully submitted,

cc:

All Counsel of Record

s/Amanda C. Goad
Amanda C. Goad
Counsel of Record for Respondent

AMERICAN CIVIL LIBERTIES UNION FOUNDATION OF SOUTHERN CALIFORNIA

